Audit of the Post-Project Condition of Roads and
Bridges Constructed in Honduras Under the
Emergency Reconstruction of Roads and Bridges
Activity

Audit Report No. 1-522-04-006-P

March 3, 2004




                San Salvador, El Salvador
March 3, 2004


MEMORANDUM
FOR:            USAID/Honduras Mission Director, Paul Tuebner

FROM:           Acting Regional Inspector General/San Salvador, Christine M. Byrne

SUBJECT:        Audit of the Post-Project Condition of Roads and Bridges Constructed
                in Honduras Under the Emergency Reconstruction of Roads and
                Bridges Activity (Report No. 1-522-04-006-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your response in
Appendix II.

The report includes one recommendation. Since USAID/Honduras has taken final
action on the recommendation, the recommendation is closed on issuance of this report.

Once again, thank you for the cooperation and courtesy extended to my staff throughout
the audit.




                                                                                 1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                   5
Contents
           Background                                                           5

           Audit Objective                                                      6

           Audit Findings                                                       6

                  Were USAID/Honduras-financed roads and bridges in adequate
                  condition one year after the project completion date?         6

                         Condition of Roads                                     7

                         Condition of Bridges                                   9

                         Two Bridges With Structural
                         Damage Should be Repaired                             10

           Management Comments and Our Evaluation                              13

           Appendix I - Scope and Methodology                                  15

           Appendix II - Management Comments                                   17




                                                                                3
This page intentionally left blank.




                                      4
Summary of   As part of its fiscal year 2003 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether the USAID/Honduras-financed
             roads and bridges were in adequate condition one year after the project completion
             date (page 6).

             USAID/Honduras-financed roads and bridges repaired or reconstructed under the
             Emergency Reconstruction of Roads and Bridges Activity (RECAP Activity)
             were in adequate condition one year after the project completion date (pages 6 to
             10).    However, two bridges had structural damage, and we made a
             recommendation that will bring this damage to the attention of the Government of
             Honduras so that it can prioritize its maintenance budget to repair these two
             bridges (pages 10 to 13).

             USAID/Honduras agreed with the reported finding and notified the Government
             of Honduras about the need to evaluate the damaged bridges so that it could
             prioritize the corrective measures needed. The Mission has taken final action on
             the recommendation, and the recommendation is closed on issuance of this report
             (page 13).



Background   Hurricane Mitch struck Honduras in October 1998. Its impact on Honduras’ road
             and bridge network—reputed to be Central America’s best before the disaster—
             was acute. In May 1999, Congress passed the Emergency Supplemental
             Appropriations Act, creating the Central America and the Caribbean Emergency
             Disaster Recovery Fund, which provided $621 million in reconstruction aid for
             countries hit by Hurricanes Mitch and Georges and for earthquake damage to
             Colombia. Because of the extent of damage caused by Hurricane Mitch, Honduras
             received $291 million.      According to our analysis of the Emergency
             Reconstruction of Roads and Bridges Activity (RECAP Activity) final report,1
             USAID/Honduras repaired or reconstructed, at a cost of $48 million:2 1) 1,200
             kilometers of unsurfaced secondary roads, 2) 69 bridges, 3) 321 major drains, and
             4) 16 kilometers of cobblestone streets in rural communities. This work took
             place in six Honduran departments (equivalent to U.S. states): Atlántida,
             Choluteca, Colón, Olancho, Valle and Yoro.

             The specific objectives of the RECAP Activity were to accelerate and make more
             durable the economic reactivation of families acutely affected by Hurricane Mitch,
             and to create conditions conducive to future generation of more jobs, increased
             income and more social and economic development. This was to be accomplished
             1
                 The report was issued by the Honduran Social Investment Fund, the Government of Honduras entity in charge of
                 reconstructing the RECAP Activity roads and bridges, on September 16, 2002.
             2
                 RECAP Activity funding consisted of $48 million in USAID funds for construction costs and $3 million in Government
                 of Honduras contributions for administrative expenses.



                                                                                                                           5
            principally by reconstructing and repairing farm-to-market roads and bridges which
            would, to the extent possible, ensure year-round uninterrupted access between
            farmlands and their markets. Reconstruction techniques aimed to reduce needed
            maintenance and, thus, enhance sustainability during the five years following the
            completion of the RECAP Activity and mitigate the potential damage of heavy
            rainfalls and floods.

            The Government of Honduras agreed to maintain roads and bridges repaired or
            reconstructed under the RECAP Activity. The Fondo Vial is a Government of
            Honduras agency responsible for maintaining roads and bridges, including all those
            repaired or reconstructed under the RECAP Activity. Our audit covered the time
            period from August 2002 (completion date for the RECAP Activity) to December 4,
            2003 (date of our last site visit).


Audit       As part of its fiscal year 2003 audit plan, the Regional Inspector General/San
Objective   Salvador performed this audit to answer the following question:

                    •    Were USAID/Honduras-financed roads and bridges in adequate condition
                         one year after the project completion date?

            Appendix I describes the audit’s scope and methodology.


Audit       Were USAID/Honduras-financed roads and bridges in adequate condition one
Findings    year after the project completion date?

            USAID/Honduras-financed roads and bridges repaired or reconstructed under the
            Emergency Reconstruction of Roads and Bridges Activity (RECAP Activity) were
            in adequate condition one year after the project completion date. Of the 564
            kilometers of roads inspected out of 1,200 kilometers repaired or reconstructed, 77
            percent (432 kilometers) were in adequate condition.3 Of the 41 bridges inspected
            out of 69 repaired or reconstructed, 95 percent (39 bridges) were in adequate
            condition.4 However, two bridges had structural damage that could significantly
            reduce their useful lives. The following sections will discuss the conditions of the
            roads and bridges separately.




            3
                We established that if over 75 percent of the kilometers of roads were in adequate condition, we would consider that the
                 roads were in adequate condition. (Refer to the Methodology section.)
            4
                We established that if over 85 percent of the number of bridges were in adequate condition, we would consider that the
                 bridges were in adequate condition. (Refer to the Methodology section.)



                                                                                                                                6
Condition of Roads

Roads were evaluated based on both critical and noncritical factors. The critical
elements consisted of: 1) the existence of potholes (see Figure 1); 2) the leveling of
the surface camber (arched surface); 3) the presence of corrugations;5 4) the
existence of erosion channels on the roadway, shoulders or ditch slopes; and 5) the
adequacy of road drainage. Noncritical elements6 include the condition of culverts
(drains under roads), the presence of vegetation in road shoulders, and the proper
compression of pothole filling material. To determine that a road was not in
adequate condition, three or more critical elements had to be rated negatively.7 An
independent civil engineer, under contract with the Regional Inspector General/San
Salvador, agreed that the above criteria were appropriate to determine whether roads
were in adequate condition.




The photograph shows the auditor on the right side of a dirt road, taking notes on a
notepad. He is inches in front of a pothole filled with muddy water. A few feet into
the background, a larger pothole is also filled with muddy water. No other person or
car appears in the photograph. Trees and vegetation are on both sides of the road.
The mountains are in the background.




             Figure 1 - Photograph of auditor assessing road condition on Road
             #210, Choluteca, Honduras, September 2003



5
    Corrugation or “washboarding” describes patches of ridges and depressions in unpaved roads.
6
    Information on noncritical elements was not considered in determining whether a road was in adequate condition, but was
     gathered for possible discussion with Government of Honduras officials.
7
    However, a road with one or two excessively negative critical elements could have been deemed not to be in adequate
     condition. This only occurred in one situation: for Olancho Road #10.



                                                                                                                   7
Based on the above criteria, 432 kilometers (77 percent) of roads inspected were in
adequate condition. Of the 564 kilometers of roads inspected, the following number
and percentage of kilometers met the below critical factors:

 Table 1 – Adequate Kilometers by Critical Factors


                                             Number of          Percentage of
             Critical Factor               Kilometers that     Kilometers that
                                             Met Factor          Met Factor

 Adequate Road Drainage                                433                   77%
 Surface Correctly Leveled                             431                   76%
 Absence of Corrugations                               412                   73%
 Potholes Filled                                       389                   69%
 Absence of Erosion Channels                           344                   61%

Within each department (equivalent to a U.S. state), the number of kilometers in
adequate condition, the number of kilometers inspected, and the percentage of
kilometers in adequate condition were as shown:

 Table 2 – Adequate Kilometers by Department


                         Number of           Number of          Percentage of
    Department           Adequate            Kilometers           Adequate
                         Kilometers          Inspected           Kilometers

 Colón                                83                86                   97%
 Yoro                                 82                87                   94%
 Valle                                70                78                   90%
 Choluteca                            80               121                   66%
 Olancho                              73               115                   63%
 Atlántida                            45                77                   58%

The Special Objective Grant Agreement between the Government of Honduras and
the United States, dated June 9, 1999, stated that the Government of Honduras
agreed that, at the conclusion of the RECAP Activity, it would continue to provide
long-term maintenance to roads and bridges repaired or reconstructed under the
RECAP Activity. Fondo Vial had a road maintenance plan and made concerted
efforts to maintain the RECAP Activity roads. Our analysis of RECAP Activity and
Fondo Vial documentation revealed that the Fondo Vial spent more money per
kilometer on RECAP Activity roads than on the unpaved road network in Honduras
as a whole, as shown in the following table:



                                                                             8
     Table 3 - Fondo Vial Expenditures per Kilometer


                                                             Kilometers             Annualized                Amount
     Road Network                 Time Period                 in Road               Maintenance              Spent per
                                                              Network               Expenditure              Kilometer

     All Unpaved   Calendar Year            8,925                                      $20,394,326                 $2,285
     Roads         2002
     RECAP Roads   September 2002           1,200                                      $ 3,449,125                 $2,875
                                8
                   to July 2003
(Source: Fondo Vial. Data was not audited.)

Condition of Bridges

Bridges were evaluated based on both critical and noncritical factors. The critical
elements consisted of: 1) deck, 2) concrete slabs,9 3) concrete beams, 4) piers, and 5)
streambed.10 Noncritical elements include the approach slab,11 backwall,12 and
abutments.13 For metal (Bailey) bridges, the condition of the steel beams and the
bearings14 were also critical factors. Both critical and noncritical elements had
several critical or noncritical sub-elements within them. If any one of the critical
sub-elements within a category was deficient, the category was rated negatively.
Furthermore, if three or more critical categories rated negatively, the bridge was
deemed not to be in adequate condition. However, a bridge with one or two
excessively negative critical elements could have been deemed not to be in adequate
condition, as was the case with Los Achiotes and Zopilote bridges (see next section).
An independent civil engineer agreed that the above criteria were appropriate to
determine whether bridges were in adequate condition.



8
       Total expenditures for the 11-month period were $3,161,698, which we multiplied by 12/11 to compute the
       annualized figure of $3,449,125.
9
       A concrete slab is a broad, flat, thick piece of concrete that covers, either by itself or with other parallel slabs, the
       bridge’s surface between the supporting abutments (see footnote number 13).
10
       A streambed is the channel through which a natural steam of water runs or once ran. Maintenance of the streambed is
       critically important, as stream scour (an undermining of the structure’s foundation) is a major cause of bridge failure.
11
       An approach slab is a surface of concrete that provides a transition between the road and the bridge. These slabs
       should be kept as smooth as possible to prevent undue impact to the bridges, especially from trucks.
12
       A backwall is a small vertical wall at the end of a bridge that extends up from an abutment (see footnote number 13)
       and supports an approach slab (see footnote number 11).
13
       An abutment supports an end of a bridge and transfers the load from the superstructure (the entire portion that
       primarily receives and supports traffic loads) into the ground.
14
       A bearing is a support element transferring loads from superstructure (the entire portion that primarily receives and
       supports traffic loads) to the substructure (the abutments, piers and other parts of the bridge that support the
       superstructure) while permitting limited movement capability.



                                                                                                                        9
Of the 41 bridges inspected, 39 (95 percent) were in adequate condition. Of the 39
bridges in adequate condition, 29 (74 percent) had all five critical elements in
adequate condition. With one exception, the remaining 10 bridges had one or two
negative critical factors. 15 The only two bridges in inadequate condition were in the
department of Olancho.

Two Bridges With Structural
Damage Should be Repaired

Based on the independent engineer’s assessment, two bridges in Olancho (Los
Achiotes and Zopilote) were not in adequate condition. The engineer stated that the
main causes were construction deficiencies and low quality of materials used, while
the secondary cause was the lack of preventive maintenance. As a result, as the
condition of the bridges deteriorates, the road access of the farmers affected by
Hurricane Mitch to the markets where the products are sold could be negatively
affected, impacting their ability to recover economically following Hurricane Mitch.

On the Los Achiotes bridge, the steel in the reinforcing bars16 was exposed. 17 (See
Figure 2 below.) The steel also presented signs of corrosion, which could rapidly
reduce the strength of the steel and the load carrying capacity of the beams, reducing
the bridge’s useful life. The concrete beams also had surface gouges. Water filtered
down through the deck, since the expansion joints between the tiles were open and
allowed the passage of water. Near the ground level, the pier showed signs of
stream scour.18 Last, on an approach road, soil was forming a natural dam, which
could create further weakening when it rains. The civil engineer estimated that this
bridge could last for two more years, until the end of the year 2005. 19




15
     Corozal bridge in Olancho had three negative critical elements, but was deemed to be in adequate condition. Only
     one critical sub-element failed within each of the three failed critical categories, and the independent engineer
     assessed the bridge to be in good condition.
16
     A reinforcing bar is a steel bar, plain or with a deformed surface, which bonds to the concrete and supplies resistance
     to the concrete.
17
     The project’s certificate of final delivery (a certificate documenting the bridge’s completion, and signed by the
     Honduran Social Investment Fund, the supervisory contractor for the repair, and the contractor that built the bridge)
     mentioned that work to protect the steel in the beams was planned, but did not mention whether such work was
     performed.
18
     Stream scour is the condition whereby a water stream erodes the concrete of the pier, undermining the bridge’s
     foundation.
19
     According to the Special Objective Grant Agreement, reconstruction techniques aimed to enhance sustainability
     during the five years following the completion of the RECAP Activity. As this bridge was completed by October
     2001, it should be sustainable until October 2006. Since the engineer’s estimate of the end of 2005 is not materially
     far from October 2006 and this is an estimate, the engineer estimated that the bridge could last for the period
     intended.



                                                                                                                  10
The photograph shows the concrete beams, as seen from below the bridge. Parts of
the concrete are no longer attached to the beam, so its surface is irregular. The steel
strands inside the beams are beginning to be exposed (as they are not covered with
concrete). Also, the beams have a separation of approximately two inches, which
allows excessive water filtration. The area represented on the picture is
approximately twelve feet horizontally by four feet vertically.




          Figure 2 – Photograph of concrete beams with corroded steel strands
          and filtered-down moisture below Los Achiotes bridge in Olancho,
          Honduras, September 2003

Zopilote bridge presented several types of damage that could reduce its useful life.
The concrete slabs on the deck of the bridge were separated. (See Figure 3 below.)
As with Los Achiotes bridge, the steel in the reinforcing bars was exposed20 and
presented signs of corrosion, which could rapidly reduce the strength of the steel and
the load carrying capacity of the beams. Last, water filtered down through the deck,
and the concrete beams showed evidence of minor leakage. The civil engineer
estimated that this bridge could last for four more years, until the end of the year
2007.21




20
     One of the project’s two certificates of final delivery mentioned that work to protect the steel in the beams was
     planned, but did not mention whether such work was performed. (Zopilote bridge had two certificates of final
     reception for different work performed on that bridge.)
21
     As this bridge was completed by October 2001, it should be sustainable until October 2006. Since the engineer’s
     estimate of the end of 2007 is beyond October 2006, the engineer estimated that the bridge could last for the period
     intended.



                                                                                                               11
The photograph shows the separated concrete slabs, as seen from above the bridge.
Dirt is filling up many of the gaps. The concrete slabs right in front of the auditor
have no dirt between them. The separation is approximately 1 ½ inches, and the
separated space is approximately two or three feet long.




       Figure 3 - Photograph of separated concrete slabs on the deck of
       Zopilote bridge in Olancho, Honduras, September 2003

For both Los Achiotes and Zopilote bridges, the civil engineer stated that the main
causes for the bridges not being in adequate condition were construction deficiencies
and low quality of materials used, while the secondary cause was the lack of
preventive maintenance. The civil engineer stated that corrective actions must be
taken as soon as possible to prevent further damage. He specifically mentioned that
repairs should be completed by May 2004, before the rainy season begins in
Olancho.

According to the Special Objective Grant Agreement, reconstruction techniques
aimed to reduce maintenance and, thus, enhance sustainability during the five years
following the completion of the RECAP Activity. Because the repairs on the two
bridges in question were completed by October 2001, and the independent engineer
estimated that the bridges could last for the projected sustainability period, we could
not determine that any work performed by implementers under the RECAP Activity
was the cause of the current inadequate condition of these bridges. Nonetheless,
because of the nature of their current condition, we believe that the Government of
Honduras should be notified of the issues with both bridges. Therefore, we are
making the following recommendation to prevent further damage to the two bridges.




                                                                                12
                   Recommendation No. 1: We recommend that USAID/Honduras
                   notify the Government of Honduras of the structural damage to
                   the Los Achiotes and Zopilote bridges identified during the
                   audit, and request that the Government of Honduras prioritize
                   its maintenance budget to repair these bridges.


Management   USAID/Honduras agreed with the reported finding and brought the damaged
Comments     bridges to the attention of the Government of Honduras. The Mission has taken
and Our      final action on the recommendation, and the recommendation is closed on
Evaluation   issuance of this report.




                                                                                    13
This page intentionally left blank.




                                      14
                                                                                                        Appendix I

Scope and     Scope
Methodology
              We audited the condition of USAID/Honduras-financed roads and bridges in
              accordance with generally accepted government auditing standards. We conducted
              the audit from September 8, 2003 through January 6, 2004 at the offices of
              USAID/Honduras and the Fondo Vial—the Government of Honduras’ agency in
              charge of the Emergency Reconstruction of Roads and Bridges Activity (RECAP
              Activity) road and bridge maintenance. Our audit work also took place in the six
              departments of Honduras with RECAP Activity roads and bridges: Atlántida,
              Choluteca, Colón, Olancho, Valle and Yoro, and within our office in San
              Salvador, El Salvador.

              Our audit covered the time period of August 2002 (completion date for the RECAP
              Activity) to December 4, 2003 (date of our last site visit). The Honduran rainy
              season runs from May to November. Our audit was limited to roads and bridges,
              and did not look at service boxes, other drainage facilities, and cobblestone streets
              that were also repaired or reconstructed by the RECAP Activity. Our audit did not
              look at the Fondo Vial’s financial records.

              A scope impairment resulted from security restrictions to perform site visits. The
              Regional Security Officer and the Peace Corps Safety and Security Officer at the
              U.S. Embassy in Honduras informed us that many of the roads and bridges we
              originally planned to visit, as part of our statistical sample, were not in safe areas and
              could not be visited. Therefore, we did not use the statistical sample we had
              designed.

              Our initial statistical sample consisted of 56 roads and 44 bridges. As a result of the
              scope limitations stated above, we decided to visit as many roads and bridges that
              we could safely visit. This resulted in our selection of 58 RECAP Activity roads out
              of the 112 roads rebuilt by the RECAP Activity, representing 564 kilometers (47
              percent) of the 1,200 kilometers in roads rebuilt. Among the 69 RECAP Activity
              bridges, 45 were in safe areas. We intended to visit all 45 bridges, but we could
              not locate or identify 4 bridges.22 Therefore, we inspected 41 bridges, or 59
              percent of the 69 RECAP Activity bridges repaired or reconstructed.

              We used unverified data from the RECAP Activity and Fondo Vial to compute
              Fondo Vial Expenditures per Kilometer (see Table 3), since verifying such data
              would have taken an inordinate amount of staff hours and the benefits of such
              verification would not have exceeded its costs.

              We assessed the Mission’s risk exposure and management control effectiveness to
              ensure that RECAP Activity roads and bridges were maintained. However, we

              22
                   Subsequently, we obtained information that located or identified all four bridges.



                                                                                                            15
determined that the Mission had no responsibilities over the maintenance of RECAP
Activity road and bridges. The Government of Honduras had the sole responsibility
to maintain these roads and bridges, as agreed in the Special Objective Grant
Agreement between the Government of Honduras and the United States, dated June
9, 1999.

Methodology

To answer the audit objective, which dealt with whether USAID/Honduras-
financed roads and bridges were in adequate condition one year23 after the project
completion date, we conducted interviews of USAID/Honduras, Fondo Vial,
RECAP Activity,24 and the Government of Honduras Ministry of Public Works,
Transportation and Housing personnel.25        We also reviewed records at
USAID/Honduras and Fondo Vial, and performed site visits.

We determined the adequacy of the roads and bridges based on both critical and
noncritical factors, as explained under the Condition of Roads (see page 7) and
Condition of Bridges sections (see page 9). An independent civil engineer, under
contract with the Regional Inspector General/San Salvador, agreed that the above
methodology was appropriate to determine whether roads and bridges were in
adequate condition. The engineer made site visits to assess the adequacy of 64.1
kilometers of roads and 6 bridges. He personally inspected 8.2 of the 132 (6.2
percent) kilometers of roads in inadequate condition.

We considered that the USAID/Honduras-financed roads and bridges were in
adequate condition if over 75 percent of the road kilometers and 85 percent of the
number of bridges were in adequate condition. We set the threshold for a qualified
opinion at over 60 percent for roads and 70 percent for bridges, and the threshold for
a negative opinion at 60 percent for roads and 70 percent for bridges. The
independent civil engineer, as well as two civil engineers from the United States
Army Corps of Engineers working at USAID/El Salvador, agreed that we should
establish lower road thresholds than usual, since we performed the majority of the
fieldwork during the rainy season.




23
     The RECAP Activity aimed to enhance the sustainability of the repaired or reconstructed roads and bridges for a five
     year period. (See footnote number 19.)
24
     The RECAP Activity was the Executing Unit for the USAID-Honduras financed activity, and operated under the
     Honduran Social Investment Fund, the Government of Honduras entity in charge of reconstructing the RECAP
     Activity roads and bridges.
25
     SOPTRAVI is the acronym for the Ministry of Public Works, Transportation and Housing, a Government of
     Honduras entity that constructs and maintains public works. The Fondo Vial, which started to operate in the year
     2000, is now the Government of Honduras entity in charge of maintaining RECAP Activity roads and bridges.



                                                                                                               16
                                                                                    Appendix II


Management
Comments



         February 3, 2004


         MEMORANDUM
         FOR:          Regional Inspector General/San Salvador, Steven Bernstein

         FROM:         USAID/Honduras Mission Director, Paul Tuebner/s/

         SUBJECT:      Audit of the Post-Project Condition of Roads and Bridges Constructed in
                       Honduras Under the Emergency Roads and Bridges Construction Project
                       Activity (Report No. 1-522-04-00X-P)

         We would like to thank you and your staff for the performance of this difficult and time
         consuming audit. The subject matter of the audit performed is of paramount importance
         to the Mission, and the Hurricane Mitch program.

         We are in agreement with your recommendation, and have already complied with the
         recommendation per the attached letter to Leoncio Yu-Way, Minister of the Fondo
         Hondureño de Inversion Social (FHIS).

         Again, we appreciate the quality of the work performed, and the cooperation and
         coordination extended to this Mission by your staff.




                                                                                          17
